                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




 AGREED-UPON PROCEDURES REVIEW OF GRANTS
  AWARDED BY CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE TO
 MISSISSIPPI COMMISSION FOR VOLUNTEER SERVICE

              OIG REPORT NUMBER 07-14




                        Prepared by:

               Leon Snead & Company, P.C.
                  416 Hungerford Drive
                Rockville, Maryland 20850




This report was issued to Corporation management on July 27, 2007. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than January 27, 2008, and complete its corrective actions by July 27, 2008.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                        OFFICE OF INSPECTOR GENERAL

                                        July 27, 2007


TO:           Kristin McSwain
              Director, AmeriCorps*State & National

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Carol Bates (signature on file)
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 07-14, Office of Inspector General Agreed-Upon Procedures for
              Corporation for National and Community Service Grants Awarded to the
              Mississippi Commission for Volunteer Service

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of Leon Snead & Company, PC (Snead) to perform agreed-upon procedures
in its review of Corporation for National and Community Service (Corporation) grants
awarded to the Mississippi Commission for Volunteer Service (Commission). The contract
required that Snead conduct its review in accordance with generally accepted government
auditing standards.

In its review of the Commission, Snead questioned Federal costs of $77,035, including
$36,311 in grant costs and $13,691 in matching costs. The audit firm also questioned
$27,033 of costs related to AmeriCorps education awards, and identified five findings on
internal controls and compliance with grant terms.

In connection with the contract, we reviewed Snead’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express opinions on the conclusions expressed in the report. Snead is
responsible for the attached report, dated February 16, 2007, and the conclusions expressed
therein. However, our review disclosed no instances where Snead did not comply, in all
material respects, with generally accepted government auditing standards.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by January 27, 2008. Notice of final action is due by July 27, 2008.




                  1201 New York Avenue, NW Suite 830, Washington, DC 20525
                    202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                      Senior Corps   AmeriCorps   Learn and Serve America
If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:   Marsha Meeks Kelly, Executive Director, Mississippi
        Commission for Volunteer Services
      Phil Bryant, Mississippi State Auditor
      Jerry Bridges, Chief Financial Officer
      Elizabeth Seale, Chief Operating Officer
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator
                                               TABLE OF CONTENTS




Executive Summary .........................................................................................................................1

Objectives and Scope of Agreed-Upon Procedures Applied...........................................................2

Background ......................................................................................................................................3

Independent Accountant’s Report on Applying Agreed-Upon Procedures.....................................4

Consolidated Schedule of Award Costs...........................................................................................6

Schedule A - Claimed and Questioned Costs (03ACHMS001) ......................................................7

Schedule B - Claimed and Questioned Costs (03AFHMS001) .....................................................11

Compliance and Internal Controls .................................................................................................13

Compliance Findings .....................................................................................................................13

Internal Control Findings...............................................................................................................18

Appendix A – Mississippi Commission for Volunteer Service Response

Appendix B – Corporation for National and Community Service Response
LEON SNEAD                                                                                        Cerqed Public Accauntants
                                                                                                  &Management Consultank
6r COMPANY, EC.
416 Hungerford Drive, Suite 400
Kockville. Marvland 20850
301-7388190
fax: 301-738-8210
leonsnead.companyp&rols.com




               Office of Inspector General
               Corporation for National and Community Service
               Washington, DC 20525

               Leon Snead & Company, P.C. applied procedures, agreed upon by the Ofice of Inspector
               General (OIG), to the costs incurred by the Mississippi Commission for Volunteer
               Service (Commission) and its subgrantees from July 1, 2004, to September 30, 2006,
               under grants awarded by the Corporation for National and Community Service
               (Corporation). The results of the agreed-upon procedures include findings of questioned
               costs; instances of noncompliance with Federal laws, regulations or award conditions;
               and weaknesses in the internal controI systems of the Commission and its subgrantees.



               Our application of agreed-upon procedures resulted in questioned costs amounting to
               $77,035, including $36,311 in grant costs, $13,691 in matching costs, and $27,033 in
               education awards. A questioned cost is: (1) an alleged violation of a provision of law,
               regulation, contract, grant, cooperative agreement, or other agreement or document
               governing the expenditure of funds; (2) a finding that, at the time of the review, such cost
               was not supported by adequate documentation; or, (3) a finding that the expenditure of
               funds for the intended purpose was unnecessary or unreasonable. We questioned costs
               for the following reasons:

                        Unsupported member eligibility ($19,848)
                        Ineligible education awards ($27,033)
                        Unsupported matching costs ($13,691)
                    a   Unallowable costs ($16,463)

               We used non-statistical sampling to test the costs claimed by the Commission for
                    .                           -
               com~liance with its award ameements with the Comoration and other Federal
                                                                            A


               requirements. Based on this sampling, questioned costs detailed in this report may not
               represent total costs that may have been questioned had all expenditures been tested. In
               addition, we made no attempt to project such questioned costs lo total costs claimed.
                                       COMPLIANCE

Our review of the Commission’s compliance with Federal laws, applicable regulations,
and award conditions disclosed the following instances of noncompliance:

    •    The Commission did not submit 7 of 28 Financial Status Reports (FSRs) within
         the time frames required in Corporation grant provisions.

    •    Two of the AmeriCorps subgrantees reviewed had member files that did not
         contain all required documentation to support their members’ eligibility for
         participation or to meet other program requirements.

                                   INTERNAL CONTROLS

The findings included two areas of weakness in the Commission’s internal control
systems. The Commission:

    •    Did not have procedures in place to reconcile expenditures reported on FSRs to its
         accounting records.

    •    Did not have procedures in place for timely reconciliation of its expenditures, as
         reported on FSRs, with grant fund drawdowns, as shown in reports from the U.S.
         Department of Health and Human Services’ Payment Management System.

             OBJECTIVES AND SCOPE OF AGREED-UPON PROCEDURES APPLIED

The objective of the agreed-upon procedures was to determine whether the Commission
expended Corporation-funded Federal assistance in accordance with applicable
requirements and to report resulting findings on compliance, controls, and questioned
costs.

Leon Snead & Company, P.C. performed the procedures in accordance with attestation
standards contained in generally accepted government auditing standards and those
established by the American Institute of Certified Public Accountants. The procedures
included obtaining an understanding of the Commission and its policies, procedures,
grants, and subgrantees. They also included reviewing documents at the Commission’s
offices and its subgrantees related to eligibility, claimed costs, matching costs, and
compliance with laws, regulations, and the terms of grant agreements.

                       GRANT PROGRAMS COVERED BY THE PROCEDURES

During the period covered by this review, the Commission received just over $13.8
million under 10 Corporation grant awards and distributed most of the funds to
subgrantees.    The majority of the subgrantees are nonprofit organizations.
Approximately $11.5 million of the amount awarded was claimed on Financial Status
Reports. The grants funded the programs listed below.


Leon Snead & Company, P.C.                   2
                                                       Funding       Claimed
         Program                          Award No.   Authorized      Costs       Drawdowns

AmeriCorps - Competitive                 03ACHMS001    $9,950,183    $9,166,911    $8,851,673
AmeriCorps - Formula                     03AFHMS001     1,741,608     1,351,274     1,435,581
Administrative                           04CAHMS001       565,164       277,629       353,907
Program Development Assist. & Training   05PTHMS001       253,000       163,988       113,999
Learn and Serve America                  03KCHMS001       968,261       313,705       421,149
Disability Placement                     04CDHMS001       139,500        87,756        79,653
Volunteers in Service to America         05VSSMS173        45,000        44,890        41,491
Basic Innovative Programs                05BIHMS001        46,000        46,000        46,000
Basic Innovative Programs                06BIHMS001       100,000
Basic Innovative Programs                06BIHMS002        34,114   __________    __________
 Totals Grants Administered                           $13,842,830   $11,452,153   $11,343,453

A summary of the funds awarded and claimed and the costs questioned is set forth below.

                                                                           Percentage of
                                                     Amount               Award/Claimed
Award Budget                                      $13,842,830                    -
Claimed Costs                                      11,452,153                  82.7
Questioned Costs                                       77,035                  0.67
Questioned Education Awards                            27,033                    -

                                         BACKGROUND

The Corporation, pursuant to the authority of the National and Community Service Trust
Act, as amended, awards grants and cooperative agreements to State commissions and
other entities to assist in the creation of full- and part-time national and community
service opportunities and programs. The Mississippi Commission for Volunteer Service
was established in 1994 to promote community service and volunteerism. With the
enactment of State Senate Bill 2447 in the 1996 Mississippi legislative session, the
Commission officially became the State Office of Volunteerism, whose mission is to
engage and support Mississippians of all ages and backgrounds in service to their
communities. As such, the Commission has the responsibility for administering the grant
funds awarded by the Corporation to the State of Mississippi for AmeriCorps program
activities.

The contents of this report were disclosed to and discussed with Commission
management and the Corporation at an exit conference held on April 5, 2007.
Commission and Corporation responses to this report are included as Appendices A and
B, respectively.




Leon Snead & Company, P.C.                    3
LEON SNEAD                                                                                    CerfiBd Public Acwuntants
                                                                                              & Mma8ment Consultants
& COMPANY,PC.
416 Hungerford Drive, Suite 400
RockviUe, Maryland 20850
301-738-8190
fax: 301-738-8210
leonsnead.companyp~ls.com



              Offke of Inspector General
              Corporation for National and Community Service
              Washington, DC 20525


                                  1NDEPENDENT ACCOUNTANT'S REPORT ON
                                   APPLYING AGREED-UPON PROCEDURES

              We have performed the procedures, agreed to by the OIG, solely to assist the OIG in
              evaluating the Commission's compliance with applicable laws and regulations, and
              assessing the allowability of the costs incurred by the Commission for the award numbers
              listed below. These costs, as presented in the Consolidated Schedule of Award Costs, are
              the responsibility of Commission management.

                       Program                         Award No.                Award Period

              AmeriCorps - Competitive
              AmeriCorps - Formula
              Administrative
              Program Develop. Assist. & Training
              Learn and Serve America
              Disability Placement
              Volunteers in Service to America
              Basic Innovative Programs
              Basic Innovative Programs
              Basic Innovative Programs

              We performed the agreed-upon procedures in accordance with attestation standards
              contained in generally accepted government auditing standards and those established by
              the American Institute of Certified Public Accountants. The procedures included
              obtaining an understanding of the Commission and its policies, procedures, grants, and
              subgrantees. They also included reviewing documents at the Commission and its
              subgrantees related to eligibility, claimed costs, matching costs, and compliance with
              laws, regulations, and the terms of grant agreements. The suficiency of the procedures is
              solely the responsibility of the OIG. Consequently, we make no representation regarding
              the suficiency of the procedures either for the purpose for which this report was
              requested or for any other purpose.
The accompanying schedules were prepared to present the costs claimed by the
Commission and its subgrantees between July 1, 2004, and September 30, 2006. The
schedules were prepared from data submitted to the Corporation by the Commission on
Financial Status Reports to comply with provisions of the grant agreements. The
schedules are not intended to be a complete presentation of Commission finances in
accordance with accounting principles generally accepted in the United States of
America. We did not audit the schedules and, accordingly, we do not provide an opinion
thereon.

As more fully described in the schedules, we have questioned costs amounting to
$77,035, including $36,311 in grant costs, $13,691 in matching costs, and $27,033 in
education awards. A questioned cost is: (1) an alleged violation of a provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds; (2) a finding that, at the time of the review, such cost
was not supported by adequate documentation; or, (3) a finding that the expenditure of
funds for the intended purpose was unnecessary or unreasonable. The terms of the grant
agreements required that all specified supporting documents be retained in order to
receive payment from the Corporation.

We were not engaged to and did not conduct an examination, the objective of which
would be the expression of an opinion on internal controls or compliance. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported.

This report is intended solely for the use of the management of the Corporation and the
Commission, and should not be used by those who have not agreed to the procedures or
have not taken responsibility for the sufficiency of the procedures for their purposes.
However, the report is a matter of public record and its distribution is not limited.


(signature on file)

Leon Snead & Company, P.C.
Rockville, Maryland
February 16, 2007




Leon Snead & Company, P.C.                   5
                               Corporation for National and Community Service
                                   Mississippi Commission for Volunteer Service
                                   Consolidated Schedule of Award Costs



                                                                    _          Questioned______ _
                                        Approved      Claimed                          Education
 Award No.          Program              Budget        Costs        Costs     Match     Awards    Schedule

03ACHMS001      AmeriCorps              $9,950,183    $9,166,911   $36,311    $13,691    $22,308     A
                Competitive
03AFHMS001      AmeriCorps               1,741,608     1,351,274        -0-        -0-     4,725     B
                Formula
                Administrative
                And All Others
                Grants Not
                Questioned               2,151,039       933,968        -0-        -0-        -0-
 Totals                                $13,842,830   $11,452,153   $36,311    $13,691    $27,033




          Leon Snead & Company, P.C.                       6
                                                                                           Schedule A

                                 Mississippi Commission for Volunteer Service
                                  Schedule of Claimed and Questioned Costs
                              Award No. 03ACHMS001 (AmeriCorps Competitive)




                                                                                Questioned_   ____
                                         Budgeted       Claimed                           Education
    Subgrantees                            Costs         Costs        Costs      Match     Awards Notes

America Reads – Mississippi             $6,475,789    $6,118,323      $14,123    $12,095         -0-    1, 2

Center for Community Development,
 Delta State University                  1,488,000      1,247,667       2,340      1,596         -0-      3

The Housing Authority of the City
 of Meridian                             1,346,544          888,595    19,848    ____-0-     $22,308    4, 5

 Sub-Total                              $9,310,333    $8,254,585      $36,311    $13,691     $22,308

Other Subgrantees                         639,850           912,326       -0-        -0-         -0-

 Total                                  $9,950,183    $9,166,911      $36,311    $13,691     $22,308



                                           Categories of Questioned Costs

         Unallowable costs                                                            $ 30,154
         Eligibility requirement not supported by documentation                         19,848
         Education awards not supported by documentation                                22,308
                  Total                                                               $ 72,310


   NOTES:

             1. America Reads – Mississippi (ARM) charged other direct costs to the grant
                totaling $14,687 in Program Year 2005/2006 for the purchase of shirts and
                sweaters for its members. The shirts cost $8,423 and the sweaters $6,264.
                However, the required AmeriCorps logo was not displayed on either the shirts or
                the sweaters. As a result, we questioned $14,123 of the expenditures charged to
                the grant and $564 used as matching costs. The ARM program director stated
                that the program was unaware of the requirement that the AmeriCorps logo be
                displayed on service gear such as shirts and sweaters.




         Leon Snead & Company, P.C.                     7
         AmeriCorps Provisions (2005), B(2), The AmeriCorps Name and Logo, state that
         “The grantee must use the AmeriCorps name and logo on service gear….”

    2. ARM claimed a total of $11,531 as matching costs in Program Year 2005/2006
       for the purchase of gifts, plaques, and awards for its members. However, ARM
       did not have supporting documentation to show that the items displayed the
       required AmeriCorps logo. In addition, two of the four purchases totaling $5,856
       were identified as gifts and memorabilia, which are considered unallowable costs
       under the Federal guidelines. As a result, we questioned the $11,531 in
       expenditures claimed as matching costs. The purchases are briefly described
       below.

         a.     A June 28, 2006, purchase for $3,403 was for 350 black lunch sacks and
                acrylic tumblers without AmeriCorps logos to be used as graduation gifts -
                questioned under both the logo and gift provisions.
         b.     A June 27, 2006, purchase for $2,453 was for 100 genuine marble ARM
                logo apples for member recognition - questioned under both the AmeriCorps
                logo and gift provisions.
         c.     A June 30, 2005, purchase of $3,496 was for graduation plaques -
                questioned under the logo provision.
         d.     A June 30, 2005, purchase of $2,179 was for aluminum awards with ARM
                logos - questioned under the AmeriCorps logo provision.

         The ARM program director stated that she was unaware of the AmeriCorps logo
         requirements. Although she did not consider the items gifts, she acknowledged
         that others could interpret some of the items as gifts.

         AmeriCorps Provisions (2003), Section B.2.b., The AmeriCorps Name and Logo,
         state that the grantee must use the AmeriCorps name and logo on service gear and
         public materials. In addition, OMB Circular A-21, Cost Principles for
         Educational Institutions, Paragraph J.1.f.(3), General Provisions for Selected
         Items of Cost, states that costs of promotional items and memorabilia, including
         models, gifts and souvenirs are considered unallowable.

    3. The Center for Community Development, Delta State University (Delta Reads),
       charged the grant a total of $3,936 in other direct costs for the purchase of
       uniforms for its members. However, we have questioned the expenditures
       because:

         a.     The uniforms were purchased and/or received at the end of the program
                year;
         b.     The uniforms did not display the AmeriCorps logo; and/or
         c.     The uniforms were purchased from a local vendor.




Leon Snead & Company, P.C.                    8
         The specific transactions are briefly described in the table below.

         Program
           Year              Fund   Amount                      Comments
                                              Uniforms purchased/received at end of program
        2005/2006 Federal            $1,072
                                              year
                                              Uniforms purchased locally and at end of
        2005/2006 Federal              530
                                              program year
        2005/2006 Match                 942   Uniforms purchased without AmeriCorps logo
        2004/2005 Federal               738   Uniforms received at end of program year
        2004/2005 Match                 654   Uniforms received at end of program year
                  Total              $3,936

         Because these uniforms were provided to members at the end of their term of
         service, we questioned the reasonableness of such purchases and whether the
         program intent for use of such uniforms was met. We questioned $2,340 of the
         expenditures charged to the grant and $1,596 used as matching costs. The
         program director acknowledged that she should have known the requirements and
         that she had no reason for not complying with them.

         AmeriCorps Provisions (2003), Section B.2.c., AmeriCorps Service Gear, state
         that, “The grantees should direct members to wear their service gear at officially
         designated AmeriCorps events and may allow members to wear their service gear
         at other times consistent with Corporation guidelines…. The grantee may not use
         Corporation funds to purchase local Program service gear.” In addition,
         AmeriCorps Provisions (2003), Section B.2.b., The AmeriCorps Name and Logo,
         state that, “The grantee must use the AmeriCorps name and logo on service gear
         and public materials.”

    4. A review of 32 member files at The Housing Authority of the City of Meridian
       (Meridian) disclosed that 14 members who served in Program Year 2005/2006
       and received partial education awards were ineligible for the awards. The
       members were enrolled as either reduced part-time or part-time members;
       however, they did not serve the minimum 450 or 900 hours required to earn the
       awards. The member files included a notation that the members were awarded
       partial education awards because the AmeriCorps Rebuilds Mississippi
       Augmentation grant started late and the members did not have enough time to
       complete their membership obligations. In these 14 cases, Meridian granted
       partial education awards based on reasons that did not meet the compelling
       personal circumstances criteria outlined in the National and Community Service
       Trust Act of 1993 and in AmeriCorps regulations. As a result, we have
       questioned the partial education awards totaling $22,308 made to the 14 members.

         The National and Community Service Trust Act of 1993, Section 139 (c)(1)(A)
         and (B), and 45 C.F.R. § 2522.230(a), provides that an AmeriCorps Program may


Leon Snead & Company, P.C.                       9
         release a participant from completing a term of service for compelling personal
         circumstances as demonstrated by the participant and documented by the
         program.

         In this case, the members did not provide documentation to demonstrate that
         compelling personal circumstances prevented them from completing their terms
         of service.

    5. A review of 24 member files at Meridian disclosed that three members were
       ineligible to serve during Program Year 2005/2006. The subgrantee did not
       obtain proper documentation from the members to show proof of U.S. citizenship
       or lawful permanent resident alien status. All three member files indicated that
       the members’ birth certificates were lost in Hurricane Katrina and that at least two
       of the members were applying for new birth certificates; however, none of the
       files indicated that the birth certificates were ever received. As a result, we have
       questioned $19,848 in member living allowances paid to the three members. One
       of the members received a partial education award, which we questioned in Note
       4 above.

         AmeriCorps Provisions (2003), Section A.14.b, Definitions, Member, state that a
         member must be an individual “who is a U.S. citizen, U.S. national or lawful
         permanent resident alien of the United States,” and Section B.8.d, Terms of
         Service, Member Enrollment, Member Enrollment Procedures, state that a grantee
         may select as a member only those who are verified as eligible to enroll in
         AmeriCorps. In addition, 45 C.F.R. § 2522.200(c) states that a birth certificate or
         U.S. passport is the primary documentation of citizenship.




Leon Snead & Company, P.C.                   10
                                                                                 Schedule B

                               Mississippi Commission for Volunteer Service
                                Schedule of Claimed and Questioned Costs
                              Award No. 03AFHMS001 (AmeriCorps Formula)




                                                                              Questioned
                                              Budgeted     Claimed            Education
Subgrantees                                    Costs        Costs              Awards    Note

Living Independence for Everyone, Inc.       $ 620,018    $ 543,585                 -0-

Mississippi State University                    679,434      560,919            $ 4,725         6

    Sub-Total                                $1,299,452   $1,104,504            $ 4,725

Other Subgrantees                               442,156      246,770                -0-

Total                                        $1,741,608   $1,351,274            $ 4,725



                                    Categories of Questioned Costs

•       Education awards not supported by documentation                         $4,725



NOTES:

          6. A review of ten member files at Mississippi State University (MSU) disclosed
             that one member who served during Program Year 2005/2006 and received an
             education award was ineligible for the award. The member did not serve the
             minimum 1,700 hours required for full-time members to earn an education award.
             MSU credited the member with 1,722 hours served and notified the Corporation
             of the member’s eligibility for a full education award of $4,725. However, MSU
             had improperly credited the member with 144 hours for time spent on active duty
             with the National Guard. The member was given credit for 12 hours per day for
             22 days (including seven Saturdays and Sundays) of Guard duty for a total of 264
             hours, rather than the 120 hours that the member would have earned at her
             AmeriCorps site. As a result, we have questioned the member’s education award
             of $4,725.




      Leon Snead & Company, P.C.                   11
         AmeriCorps Provisions (2003), Section B.8.a, Terms of Service, Program
         Requirements, provide that a full-time member must serve at least 1,700 hours to
         receive a full education award. In addition, AmeriCorps Provisions (2003),
         Section B.7.l, Training, Supervision and Support, Armed Forces Reserves, state
         “Grantees should credit members for AmeriCorps service hours during their two
         weeks of active duty service if it occurs during their AmeriCorps service. The
         member would receive credit for the number of hours he or she would have
         served during that period had there been no interruption. For example, if a full-
         time member is signed up to serve 30 hours of AmeriCorps service one week and
         40 hours of AmeriCorps service the following week, she or he would receive 70
         hours of AmeriCorps service credit for the two weeks of active duty service
         regardless of the actual number of hours served in the Reserves.”




Leon Snead & Company, P.C.                   12
                                  COMPLIANCE AND INTERNAL CONTROLS

We applied the agreed-upon procedures to the Consolidated Schedule of Award Costs
that summarizes the costs incurred by the Commission for the Corporation award
numbers listed on Page 4 of this report.

                                               COMPLIANCE

Compliance with Federal laws, regulations, and the provisions of the grant awards is the
responsibility of Commission management. As a part of our review, we performed
procedures to test compliance with certain provisions of laws, regulations, and the terms
and conditions of the grant awards. However, our objective was not to provide an
opinion on overall compliance with such provisions. Accordingly, we do not express
such an opinion. The results of the application of the agreed-upon procedures disclosed
the following instances of noncompliance that are required to be reported under generally
accepted government auditing standards applicable to attestation engagements.

Finding No. 1 – Financial Status Reports (FSRs) Were Not Submitted in a Timely
Manner.

The Commission did not have adequate financial management controls to ensure that
FSRs were submitted to the Corporation in accordance with established timeframes.
During the period from July 1, 2004, to September 30, 2006, the Commission submitted 7
of 28 FSRs late. The late FSR submissions were for the grants listed below.

   Grant                       Grant            Due         Submission           Days
  Number                       Name             Date            Date             Late
04CDHMS001                   Disability        07/31/2005     10/17/2005          78
04CAHMS001                   Administrative    07/31/2005     10/17/2005          78
05PTHMS001                   PDAT              07/31/2005     10/19/2005          80
05PTHMS001                   PDAT              07/31/2006     09/05/2006          36
03KCHMS001                   Learn and Serve   01/31/2005     04/15/2005          74
03KCHMS001                   Learn and Serve   07/31/2005     10/17/2005          78
03ACHMS001                   Competitive       10/31/2005     11/11/2005          11

Financial accountability controls and grant monitoring at both the Corporation and
Commission levels are weakened when FSRs are not submitted in a timely manner.
Prompt accounting is needed to ensure that grant funds are spent for the intended
purposes and in accordance with grant provisions. When accounting controls are not
followed, the potential for fraud, waste and abuse is increased.

AmeriCorps Provisions (2003), Section B.16.a.i, Reporting Requirements, Financial
Status Reports, state that grantees shall submit semi-annual cumulative financial status
reports that summarize expenditures during the reporting period by April 30 and October
31 using eGrants.




Leon Snead & Company, P.C.                      13
For the Administrative, PDAT and Disability grants, the Provisions for State
Administrative, Program Development and Training, and Disability Placement Awards,
Section B.5.a, Reporting Requirements, Financial Status Reports, state that the grantee
shall submit semi-annual cumulative financial reports that summarize expenditures
during the reporting period by July 31 and January 31.

Recommendation

We recommend that the Corporation ensure that the Commission submits FSRs to the
Corporation by the required due dates.

Commission’s Response

The Commission’s response stated that, except for one report due in July 2006, all FSRs
are now submitted by the due dates. This was made possible with the hiring of a new
chief financial officer.

Corporation’s Response

The Corporation acknowledged that the Commission had been late in submitting some of
its FSRs; however, the Commission informed the Corporation of the circumstances and
was provided extensions, although the extensions were requested after the due dates in
some instances. In addition, the Corporation stated that the Commission had improved
its systems and has submitted its reports on time over the last three reporting cycles.

Auditor’s Comments

The corrective actions taken by the Commission are responsive to the recommendation.

Finding No. 2 - Subgrantee Files Did Not Always Comply With Program
Requirements.

We reviewed 126 subgrantee member files and identified 21 exceptions, as described
below:

    •    Education Awards – Two subgrantees improperly certified education awards for
         fifteen members. Fourteen of the members were granted partial education awards
         for reasons that were not demonstrated by the member or did not meet the
         compelling personal circumstances criteria outlined in the law and regulations.
         The member files included a notation that the members were awarded partial
         education awards because the AmeriCorps Rebuilds Mississippi Augmentation
         grant started late and the members did not have enough time to complete their
         membership obligations. Section 139 of the National and Community Service
         Trust Act of 1993 and 45 C.F.R. § 2522.230 state that an AmeriCorps program
         may release a participant from completing a term of service for compelling




Leon Snead & Company, P.C.                  14
         personal circumstances as demonstrated by the participant and documented by the
         program.

         One member was given a full education award even though she did not serve the
         minimum 1,700 hours required to earn the award. In this case, the subgrantee had
         misinterpreted the requirements and credited the member with excessive hours for
         the time spent on active duty with the National Guard. The member was given
         credit for 12 hours per day of Guard duty for 22 days (including seven Saturdays
         and Sundays) for a total of 264 hours, rather than 120 hours that the member
         would have earned at her AmeriCorps service site.

         AmeriCorps Provisions (2003), Section B.8.a., Terms of Service, Program
         Requirements, provide that a full-time member must serve at least 1,700 hours to
         receive a full education award. In addition, AmeriCorps Provisions (2003),
         Section B.7.l., Training, Supervision and Support, Armed Forces Reserves, states
         “Grantees should credit members for AmeriCorps service hours during their two
         weeks of active duty service if it occurs during their AmeriCorps service.” The
         member would receive credit for the number of hours he or she would have
         served during that period had there been no interruption. For example, if a full-
         time member is signed up to serve 30 hours of AmeriCorps service one week and
         40 hours of AmeriCorps service the following week, she or he would receive 70
         hours of AmeriCorps service credit for the two weeks of active duty service
         regardless of the actual number of hours served in the Reserves.”

    •    Criminal Background Checks – One subgrantee did not obtain timely criminal
         background checks for three of its members. The background checks were
         completed three to nine months after the members began to serve at their
         respective AmeriCorps sites, all of which were child day care centers.
         AmeriCorps Provisions (2003), Section B.6.h., Member Enrollment, Criminal
         Background Check, provide that programs with members who have substantial
         direct contact with children, shall, to the extent permitted by state and local law,
         conduct criminal background checks on those members as part of the overall
         screening process. In addition, they provide that the grantee must ensure, to the
         extent permitted by state or local law, that it maintains documentation to
         demonstrate that the background check results were considered in selecting or
         placing the members.

    •    Eligibility Documentation - Three members did not provide acceptable
         documentation of citizenship or lawful permanent resident alien status, a
         requirement for participation in the program. All three member files indicated
         that the members’ birth certificates were lost in Hurricane Katrina and that at least
         two of the members were applying for new birth certificates; however, none of the
         files indicated that the birth certificates were ever received. AmeriCorps
         Provisions (2003), Section B.14., Definitions, Member, state that a member must
         be an individual “who is a U.S. citizen, U.S. national or lawful permanent resident
         alien of the United States,” and Section B.8.d, Terms of Service, Member



Leon Snead & Company, P.C.                    15
         Enrollment, Member Enrollment Procedures, state that a grantee may select as a
         member only those who are verified as eligible to enroll in AmeriCorps. In
         addition, 45 C.F.R. § 2522.200(c) states that a birth certificate or U.S. passport is
         the primary documentation of citizenship.

Recommendations

We recommend that the Corporation ensure that the Commission:

•        Follows up with Mississippi State University to assure that policies and
         procedures are in place and operating effectively for verifying that criminal
         background checks are obtained in a timely manner, as part of the screening
         process, for those members who have substantial direct contact with children;

•        Emphasizes to subgrantees the acceptable documentation required to verify
         member eligibility; and

•        Emphasizes to subgrantees the documentation requirements for making partial
         education awards to members under compelling personal circumstances, and the
         requirements for making education awards to members serving in Armed Forces
         Reserves and the National Guard.

Commission’s Response

The Commission responded to each of the issues noted in the finding with the following
comments.

Members Were Given Partial Education Award – The Commission acknowledged that
the program staff did not adequately justify in each file its basis for granting requests for
prorated awards due to compelling personal circumstances, although each request
submitted was scrutinized by the staff before final approval.

Member Did Not Serve the Minimum 1700 Hours – The Commission agreed with the
finding and stated that this was an honest mistake on the part of the program staff. The
Commission provided assurance that action would be taken to ensure that the staff does
not make a similar mistake in the future.

Timely Criminal Background Checks – The Commission stated in its response that all
program staffs are trained in obtaining criminal background checks. In this case, the
subgrantee had undergone a change of staff and failed to complete the required
background checks in a timely manner.

Eligibility Documentation Missing Due To Hurricane Katrina – The Commission stated
in its response that it was fully aware of the program requirements; however, it stated that
these were extraordinary times and that even some city governments lost all of their
public records during the hurricane.           The Commission agreed that acceptable


Leon Snead & Company, P.C.                    16
documentation of citizenship or lawful permanent resident alien status was not obtained
for the three members questioned during this review.

Auditor’s Comments

The Commission acknowledged that the program staff did not adequately justify in each
member’s files its basis for granting requests for prorated education awards due to
compelling personal circumstances; however, the Commission still maintained that the
members were entitled to receive the awards. We continue to question the partial
education awards given to the 14 members because the members’ files did not document
the compelling personal circumstances, in accordance with the criteria outlined in the
regulations.

Regarding the member (a National Guard reservist) who was given a full education
award even though she did not serve the minimum 1700 hours required to earn the award,
the Commission maintains that this was an honest mistake on the part of the program
staff and that the member still should be eligible for a prorated education award. We
continue to question the full education award.

The Commission responded that all program staffs are trained to obtain criminal
background checks. In this case, the subgrantee had undergone a change in program staff
and did not obtain the background checks in a timely manner. However, the Commission
did not provide documentation to indicate whether policies and procedures are now in
place at Mississippi State University to ensure that background checks are obtained on a
timely basis and the results considered in selecting or placing members.

The Commission agreed that acceptable documentation of citizenship was not provided
for the three members questioned in the report.

The Corporation should assess the position taken by the Commission on these issues and
determine whether the proposed actions are adequate, or whether additional information
or actions are needed.




Leon Snead & Company, P.C.                 17
                                        INTERNAL CONTROLS

Commission management is responsible for establishing and maintaining internal
controls. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs of internal control policies and
procedures. The objective of internal controls is to provide management with reasonable,
but not absolute, assurance that assets are safeguarded against loss from unauthorized use
or disposition. Internal controls also provide assurance that transactions are executed in
accordance with management’s authorization and recorded properly to permit accurate
preparation of financial reports. Because of the inherent limitations in any system of
internal controls, error or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the internal controls to future periods is subject to the risk
that procedures may become inadequate due to changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate. In
applying the agreed-upon procedures, we noted the internal control weaknesses discussed
below.

Finding No. 3 – Financial Status Reports Were Not Always Supported by
Information in the Financial Management System.

The Commission did not have an effective system in place for timely reconciliation of
expenditures, as reported on FSRs, with expenditures recorded in its financial
management system. As a result, we found significant variances between the reported
and recorded expenditures for four of the active Commission grants. The differences, by
grant, are summarized in the table below.

                             Cumulative Reporting    Accounting
     Grant No.                      Period            Records        FSR        Variance
   04CAHMS001                07/01/04 to 06/30/06     $ 327,323    $ 277,629    -$49,694
   03KCHMS001                07/01/04 to 06/30/06     $ 334,612    $ 313,705    -$20,907
   03AFHMS001                10/01/04 to 09/30/06     $1,414,120   $1,351,274   -$62,846
   03ACHMS001                10/01/04 to 09/30/06     $9,076,082   $9,166,911    $90,829

We were unable to determine the reasons for the variances between the FSRs and
accounting records because the Commission did not maintain sufficient records to
reconcile the amounts. However, the amounts for the AmeriCorps Competitive and
Formula grants differed, in part, because the year-end FSRs covered the period through
the end of the program year (July or August), while the accounting records covered the
fiscal year ended September 30. The Commission prepares the FSRs from information
that is not reconciled to the accounting system. As a result, the Corporation has no
assurance that costs reported on the FSRs are the actual costs expended to operate these
programs.

The Provisions for State Administrative, Program Development and Training and
Disability Placement Awards, C(12)(a), Financial Management Provisions, General, and
AmeriCorps Provisions (2003), Section C.22.a., Financial Management Standards,



Leon Snead & Company, P.C.                      18
provide that “The Grantee must maintain financial management systems that include
standard accounting practices, sufficient internal controls, a clear audit trail and written
cost allocation procedures, as necessary. Financial management systems must be capable
of distinguishing expenditures attributable to this grant from expenditures not attributable
to this grant. The systems must be able to identify costs by programmatic year and by
budget category and to differentiate between direct and indirect costs or administrative
costs.”

Recommendation

We recommend that the Corporation ensure that the Commission implements a system to
reconcile expenditures, as recorded in the financial management system, to the
expenditures reported on the FSRs prior to each submission. We also recommend that
the Corporation ensure that the Commission reconciles the accounting records to costs
claimed and resubmits the FSRs as required.

Commission’s Response

The Commission responded that reconciliation forms have been developed to periodically
verify the congruency between individual FSRs and its financial records. The
Commission believes these improvements will eliminate any future concerns of
variances.

Auditor’s Comments

The corrective actions proposed by the Commission appear to address differences
between the FSRs and the financial records that may occur in the future, if the
reconciliation is performed prior to the FSR submissions. However, the actions do not
address prior FSR submissions.

Finding No. 4 - Some Expenditures Reported on FSRs Differed Considerably from
Cash Drawdown Records.

The Commission did not have an effective system in place for timely reconciliation of
expenditures, as reported on FSRs, with the grant fund drawdowns reported on Federal
Cash Transaction Reports (FCTR). We found significant variances between the reported
expenditures and the grant fund drawdowns for seven of the active grants. Recognizing
that FSRs are on an accrual basis and FCTRs are cash basis reports, it is difficult to
understand how the cash drawdowns would exceed reported expenditures.




Leon Snead & Company, P.C.                   19
The differences, by grant, are summarized below.

                                                                         Over/Under
                                            Per FSR        Per HHS          Draw
    AmeriCorps Competitive                $9,166,911     $8,851,673      -$315,238
    AmeriCorps Formula                     1,351,274      1,435,581         84,307
    Administrative                           277,629        353,907         76,278
    PDAT                                     163,988        113,999        -49,989
    Learn & Serve America                    313,705        421,149        107,444
    Disability Placement                      87,756         79,653         -8,103
    Volunteers in Service to America          44,890         41,491         -3,399

The amounts for the AmeriCorps Competitive and Formula grants differed, in part,
because the year-end FSRs covered the period through the end of the program year (July
or August), while the accounting records covered the fiscal year ended September 30 and
were the basis for drawdowns. There may have been additional causes that we could not
determine because the Commission maintained no documents to support them.

OMB Circular A-102, Grants and Cooperative Agreements with State and Local
Governments, Subpart 2.a, states “Agency methods and procedures for transferring funds
shall minimize the time elapsing between the transfer to recipients of grants and
cooperative agreements and the recipient’s need for the funds.”

Recommendations

We recommend that the Corporation ensure that the Commission implements a system to
ensure that amounts drawn from the Payment Management System are for immediate
cash needs and comply with OMB Circular A-102. We further recommend that the
Corporation recoup the funds drawn in excess of grant expenditures, as well as interest
earned on the excess funds drawn.

Commission’s Response

The Commission responded that its drawdowns are made to cover current expenditures,
and in no instance are there drawdown advances that result in interest income over $250.
In addition, the Commission provided documentation to show that systems are now in
place to identify the occurrence of under/over draws and to disclose the effect on the
FSRs and drawdown records.

Auditor’s Comments

At the time of the review, the Commission did not have documentation that provided for
reconciling the significant variances between the grant fund drawdowns and the reported
expenditures. The system now in place appears to provide for this reconciliation.




Leon Snead & Company, P.C.                 20
Finding No. 5 - The Commission Claimed Unallowable and Unsupported Costs.

As described in detail in the notes related to Schedules A and B, the Commission and its
subgrantees claimed costs that did not comply with laws, regulations, or grant or other
agreements or documents governing the expenditure of funds; were not supported by
adequate documentation; or were unnecessary or unreasonable.

Recommendations

We recommend that the Corporation:

    •    Follows up with the Commission to determine if questioned and unsupported
         amounts should be allowed or disallowed and recovered. Also, the Corporation
         should apply the 5.26 percent administrative rate to any costs deemed unallowable
         and recover those costs as well.

    •    Ensures that the Commission trains its subgrantees on determining the
         allowability of costs and documentation required to support claimed costs, and
         confirms the subgrantees’ understanding of the training via on-site financial
         monitoring.

Commission’s Response

The Commission agreed that the questioned costs were unallowable as Federal share, and
stated that the subgrantee will be asked to adjust its records. However, the Commission
stated further that the subgrantee incurred other allowable costs not claimed as Federal
share. It plans to work with the Corporation during the audit resolution to substantiate
those additional costs.

Auditor’s Comments

Although the Commission’s response provides additional information on the issues
relating to the identified questioned costs, the Corporation still needs to make a
determination as to whether the questioned costs and education awards should be allowed
or disallowed and recovered.



(signature on file)

Leon Snead & Company, P.C.
Rockville, Maryland
February 16, 2007




Leon Snead & Company, P.C.                   21
                                          OFFICE O F THE GO1 ERUOR

                                               June 22,2007


Ms. Carol Batcs
Assistant Inspector General for Audits
Corporation for National and Community Service
Washington, DC 20525

Dear Ms. Bates:

Thank you for this opportunity to comment on the draft report of the Officc of Inspector General's
Agreed-Upoiz-Proceduresfor the Corporation for Natlonal and Community Sewice Grants
Awarded to the Miss~ssippiCommissionJor Volunteer Sewice, prepared by the contractcd firm of
Leon Snead and Company, P.C., Rocltville, Maryland.

The Mississippi Commission for Voluntccr Service (MCVS) is proud to administer the
AmeriCorps* Formula, Competitive and VISTA grants and other grant funding provided by the
Corporation for National and Community Service (CNCS). From the inception of our organization
in January 1994, we have been diligent and committed to expanding our capacity to managc a
wide-ranging portfolio consisting of diverse organizations that serve the most pressing needs of the
State of Mississippi. We look upon the results of the agreed-upon procedures review of the MCVS
as anothcr learning opportunity to improve our ability to effectively managc and administer our
programs.

Please see the attached response which provides more details on some of thc questioned costs and
findings noted in the report. The MCVS will work closely with CNCS during the audit resolution
process to resolve all findings and implement recommendations in the report, as needed.

The experience and reported findings of the agreed-upon procedures allowed us the opportunity to
make appropriate improvcmcnts in our organization's processes and heightened our sub-grantees'
due diligcnce. Ron Huritz, OIG, and Jcssc Morris and the auditors with Leon Snead, Inc. were a
pleasure to work with and they were extremely professional. We are confident that the audit issues
presented in the draft report will be successfully resolved. Pleasc lct us know if you we can
provide you with further information.




~xecdtivcDircctor   '     (J
                   Mississippi Commission for Volunteer Service
              Response to Findings of the OIG Agreed Upon Procedures

Finding No. 1 - Financial Status Reports (FSRs) Were Not Submitted in a Timely
Manner.
In a letter dated August 12, 2005 the MS Commission requested an extension for the
submission of financial status reports that were due July 30, 2005, for the period covering
January 1, 2005 - June 30, 2005. The letter also notified CNCS of corrective actiou taken
by the MCVS of the termination of the MCVS Chief Financial Officer as of August 10,
2005. As a result of the CFO's departure, financial status reports for grants
04CDHMS001,04CAHMS001,05PTHMS001and 03KCHMS001 that were due July
30,2005, were submitted late but the extension was approved by CNCS. Hurricane
Katrina delayed the search for a new CFO however a new CFO was hired October 10,
2005 and with great effort was able to submit the four delinquent financial status reports
within ten days. With the exception of the 05PTHMS001 financial status report due July
30, 2006, (which mistakenly was completed but we failed to electronically send), the
other financial status reports were submitted by the CFO within 13 days of their due date.
Since that time all financial status reports have been submitted by their scheduled due
date to CNCS. See table below. A c o w of this letter (Attachment C) and the
Corporation's response (Attachment C.2) is included.



             Proiect Period
                                                         FSR Due             FSR Submitted
Grant No.    From        To
                         -              Reporting Period Date                per Commission Days Late




04CAHMSOO 1 11112004     1213112006     111106-6130106 713 112006            07/2i106
Administration                          711106-12131106 1/31/07              01119107



05PTHMS001 4/1/2005      313 112008     711106-1213 1/06 113 1/07            01119107
PDAT




03KCHMS001 101112003 913012006           111106-6130106      713 112006      xJafi
Learn 6r Serve




03ACHMS001 81112003      i 2i.3 I /?iM 1011105-3131106 413012006             W Q 5
Competitive                            411106-9130106 10131/06               10131106

                              Mississippi Commission for Voiuntccr Scmicc
                          Respmsc Lo Findings of the OIG Agreed Upon Procedures
                                                Page I of 6
Finding No. 2    -   Subgrantee Files Did Not Always Comply With Program
Requirements.

2-A: Members given partial education award.

      The program, in good faith, attempted to provide all members the opportunity to
      earn a full education award during the member's term of service. However, these
      were extremely difficult times following Hurricane Katrina. To be an AmeriCorps
      member on the Mississippi Gulf Coast during this time was an act of courage.
      Housing was almost impossible to find, and so were people to work in these
      programs even though they were critical. The notification of grant award for
      augmentation funds was received on February 17, 2006. The program began
      enrolling members into the augmentation component starting March 13, 2006. If
      an individual attempted to earn required hours and was unable to do so because of
      hislher late start, program staff believed a prorated education award due to
      personal compelling circumstances was an option. Although the program did not
      adequately justify in each member file its basis for granting requests for prorated
      awards due to personal compelling circumstances, each request submitted was
      scrutinized by program staff before final approval.

      Program staff was also aware of the small amount of the prorated education award
      available ($2,362 - half; $1,250 - quarter) for completing this shortened member
      service year. They also were aware of the rules that an individual not earning an
      education award precluded h i d e r from serving a second term, and that once
      earning an award, whatever the amount, may preclude a member from working
      toward a full-time award of $1,700 for two years. Staff was working with each
      member personally to determine the best outcome for the member's future plans.

2-B: Member did not serve minimum 1700 hours.

   A review of ten member files at Mississippi State University (MSU) disclosed that
   one member who served in the program during Program Year 200512006 and
   received an education award was ineligible for the award. The member did not serve
   the minimum 1,700 hours required for full-time members to earn an education award.
   MSU credited the member with 1,722 hours served and notified the Corporation of
   the member's eligibility for a full education award of $4,725. However, MSU had
   improperly credited the member with 144 hours for time spent on active duty with the
   National Guard. The member was given credit for 12 hours per day for 22 days
   (including seven Saturdays and Sundays) for a total of 264 hours, rather than the 120
   hours that the member would have earned at her AmeriCorps job site. As a result, we
   have questioned the education award of $4,725 made to the member.

      AmeriCorps Provisions (2005), E(1), Terms of Service, Program Requirements,
      provide that a member must serve at least 1,700 hours to receive a full education
      award. In addition, AmeriCorps Provisions (2005), D(10), Training, Snpervision
      and Support, Armed Forces Reserves, state "...Grantees should credit members

                             Mississippi Commission for Volunteer Savice
                        Response to F m h g of the 01C Agrced Upon Pmcedurci
                                             Page 2 of 6
for AmeriCorps service hours during their two weeks of active duty service if it
occurs during their AmeriCorps service. The member would receive credit for the
number of hours he or she would have served during that period had there been no
intenuption. For example, if a full-time member is signed up to serve 30 hours of
AmeriCorps service one week and 40 hours of AmeriCorps service the following
week, she or he would receive 70 hours of AmeriCorps service credit for the two
weeks of active duty service regardless of the actual number of hours served in
the Reserves."

And on page 16:
One member was given a full education award even though she did not serve the
minimum 1,700 hours required to earn the award. In this case, the subgrantee had
misinterpreted the requirements and credited the member with excessive hours for
the time spent on active duty with the National Guard. The member was given
credit for 12 hours per day for 22 days (including seven Saturdays and Sundays)
for a total of 264 hours; rather than 120 hours that the member would have earned
at her AmeriCorps job site.

AmeriCorps Provisions (2005), E(1), Terms of Sewice, Program Requirements,
provide that a member must serve at least 1,700 hour3 to receive a full education
award. In addition, AmeriCorps Provisions (2005), D (lo), Training, Supervision
and Support, Armed Forces Reserves, state "...Grantees should credit members
for AmeriCorps service hours during their two weeks of active duty service if it
occurs during their AmeriCorps service. The member would receive credit for the
number of hours he or she would have served during that period had there been no
interruption. For example, if a full-time member is signed up to serve 30 hours of
AmeriCorps service one week and 40 hours of AmeriCorps service the following
week, she or he would receive 70 hours of AmeriCorps service credit for the two
weeks of active duty service regardless of the actual number of hours served in
the Reserves."

This was an isolated incident. Staff turnover resulted in new program staff, and it
is apparent the new program staff did read but misinterpreted the applicable
provision. Staff assumed 12 hours is the allowable number of hours to be earned
and did not take into account the "up to 12 hours" as stated in the provisions.

This young lady missed a minimal number of days from her service site other than
her time serving her country in the Army Reserves. She served some additional
service hours at her site during the early morning hours. The site supervisor,
program staff, and mid- and end-of-year member evaluations all document her
service was good for the children and her community. Had the member been
aware that all military service hours could not be counted, she would have sought
opportunities to earn additional appropriate service hours.




                      Mississippi Commission for Vuluntrrr Scmicc
                 Rcsponse to Findings of the OIG Agrccd Upon Pcoccduics
                                       Page 3 "(6
   This was an honest mistake on the program's part, and MCVS will ensure that a
   mistake such as this does not occur again. MCVS requests this member do
   receive a prorated education award due to staff error. It is MCVS' understanding
   that staff errors do constitute "compelling personal circumstances" because they
   are beyond the member's control, and thus this young lady should be eligible for a
             education award.


2-C: Timely criminal background checks

All MCVS programs are trained in obtaining timely criminal background checks.
This sub-grantee had changed staff and failed to have these on file in a timely manner
for three of its members. The background checks were completed three to nine
months after the members bcgan to serve at their respective AmeriCorps job sites,
which were child day care centers. All MCVS AmeriCorps programs are aware of the
AmeriCorps Provisions, C(7), Member Enrollment, Criminal Background Check,
which provide that programs with members who, on a recurring basis, have access to
children, shall, to the extent permitted by state and local law, conduct criminal
background checks on those members as part of the overall screening process. M
MCVS programs also know that they must ensure, to the extent permitted by state or
local law, that they must maintain documentation to demonstrate that the background
check results were considered in selecting or placing the members. MCVS strives to
comply 100% with all provisions.

2-D: Eligibility documentation missing due to Hurricane Katrina

Three members were unable to provide acceptable documentation of citizenship or
lawful permanent resident alien status, a requirement for participation in the program.
All three member files indicated that the members' birth certificates were lost in
Hurricane Katrina and that at least two of the members were applying for new birth
certificates; however, none of the files indicated that the birth certificates were ever
received. Again, these were extraordinary times; and even city governments lost all
their public records. Post offices did not exist for a long period; and very few places
had normal means of communication like computers, faxes, etc. However, all MCVS
programs are aware of the AmeriCorps Provisions (2005), A(5)(b), Definitions,
Member, which states that a member must be an individual "who is a U.S. citizen,
U.S. national or lawful permanent resident alien of the United States," and C(l)(a)(ii)
Member Enrollment, Member Enrollment Procedures, which states that a grantee
may select as a member only those who are verified as eligible to enroll in
AmeriCorps. In addition, 45 C.F.R. § 2522.200(c) states that a birth certificate or
U.S. passport is the primary documentation 01citizenship.




                           Mississippi Camissian for Vuluntecr Service
                      Response to Finding of the OIG Agrccd Upor Pracedurcs
                                           Page 4 of h
Finding No. 3 - Financial Status Reports Were Not Always Supported by
Information in the Financial Management System.

The financial system in place for MCVS contains structural components that allow
expenditures for a financial period to be input after the financial period has ended. As a
result, the support data for FSR's may have been understated in each case because not all
expenditures for the reporting period were included. However, it was the best data
available at the time of FSR submission; and the accounting system balanced to the data
reported. There can be differences between individual FSR's and regenerated financial
data for the period, but these variances in data are reconciled at the end of the grant
budget period. The table below demonstrates how data from the individual FSR, in the
aggregate, and the financial records are reconciled at the end of the grant budget period.

      Period            CNCS Administration                         CNCS Administration
                              FSR                                       Financials
01/01/04-03131/04                  47.842.21
0410 1104-06/30/04                 67,357.41                                       121,110.64
0710 1104-09/30/04                 57,431.44
10/01/04-12131/04                  32,186.94                                        67,668.38
01/01/05-06/30/05                 175,132.00                                       191,170.98
07/01/05-12131/05                           0                                               0
01/01/06-06/30/06                 102,496.50                                       101,550.13
0710 1106-12131/06                 82,717.50                                        83,663.87
Total                             565,164.00                                       565,164.00

Reconciliation forms have been developed to periodically verify the congruency between
individual FSR's and regenerated financial records, and MCVS believes these improved
systems will allay any future concerns of variances.


Finding No. 4:Expenditures Reported on FSR's Did Not Agree with HHS Records.

There is no requirement for FSR's to match HHS Records in the interim. Our drawdown
records are based solely on the financial data available at the time of drawdown activity.
Drawdowns covered the current expenditures, and in no instance are there drawdown
advances that result in interest income over $250. The financial system in place for
MCVS contains structural components that allow expenditures for a financial period to be
input after the financial period has ended. Due to the scheduling of drawdowns (usually
at the end of the current month or beginning of the next month) by our fiscal agent (IHL),
there is opportunity for period expenditures supporting the drawdown to be exclusive
from expenditures supporting the FSR for the same period. Systems are in place currently
to identify the occurrence of undedover draws and disclose the effect to financial status
reports and drawdown records. See attached reconciliation forms for FSR 269 and
SF272 reports (Attachment A-B).



                              Mississippi Commission for Volunteer Servicc
                         Rcsponse to Findings of the OIG Agreed U p m Procedures
                                                Page 5 of 6
Finding No. 5: Commission Claimed Unallowable and Unsupported Costs

MCVS agrees the costs are unallowable as federal share. MCVS will ask the subgrantee
to adjust its records and not claim those costs. However, the organization incurred other
allowable costs it did not claim as federal share that we want to substitute for the
disallowed costs. We will work with the Corporation during audit resolution to
substantiate those additional costs.




                              Mississippi Commission lor Volunteer Scnicr
                         Rcspansc to Findings oi the OIG Agreed Upon Praccdurcs
                                               Page 6 of 6
Attachment A.



Mississippi Commission for Volunteer Service
Reconciliation Form

DRAWDOWN VS. FSR 269 RECONCILIATION

Reporting Period                                 07/01/2006   1213112006

Over (+) Under (-) Draw Amount from Previous Period                 XXXX

Current Period Drawdowns                                            XXXX

Net Drawdown Amount for Current Period                                     XXXX

Financial Status Report for Current Period                                 XXXX

Difference                                                                 XXXX

Over (+) Under (-) Draw Amount for Next Period                      XXXX
Attachment R.



Mississippi Commission for Volunteer Service
Reconciliation Form

DRAWDOWN VS. SF272 RECONCILIATION

Reporting Period

                                   Drawdowns   Expenditures Difference   Note:
07CAHMS001           January
                     February
                     March
                     Total

07CDHMS001           January
                     Febrnary
                     March
                     Total

05PTHMS001           January
                     February
                     March
                     Total

07VSSMS001           January
                     February
                     March
                     Total

03KCHMS001           January
                     February
                     March
                     Total

03ACHMS001           January
                     February
                     March
                     Total

Total
                                                                             M~.~sha. Mileeks Kelly
                                                                                 -biiecuii~e Dimtor
                                                        Mississi~piComr~issionh r Volunteer Si-vise
                                                                      3825 P?dgewoodRoad, #601
                                                                                Jaclcsor?,)AS 3921 1
                                                                                  PH: 601-432-6738
                                                                                 FAAX 601-432-6790
                                                                         E-mail: Marsha@MCVS.org



Date:          August 12,2005
From:          Marsha Meeks Kelly
To:            Rosie Mauk, Ralph Morales, Bonnie Janicki, LaJuan Bright, Kevin Days, Karen
               Peters
RE:            Extension of SF-269's




Dear CNCS Colleagues:

The Mississippi Commission for Volunteer Service had to terminate our Chief Financial Officer,
Witesh Desai, on August 10, 2005. We have not been able to recover all the financial records that
will enable us to complete the SF-269's for our Administration, PDAT, Disability and Learn and
Serve grants.

We understand that these reports were due on July 3 1,2005. We are working with our fiscal
staff of the Institutions of Higher Learning to be able to submit these documents; however, we do
request an extension until September 30,2005.

We will utilize the fiscal agents' personnel until we fi11 the position. We will post the opening
soon am1 plan ta have someone on board by S,cptember. We ask for your ptience amsl
understanding as we go though this transition.

Cc:     Mike Ratliff, MCVS Board Chair
        Dr. Linda McFal!, institutions of Higher Learning, Asst. Commissioner for Finance and
        Ariministiqi'ion
                  C_
From:                Marsha Kelly
Sent:                Tuesday, February 27,2007 4:00 PM
To:                  Danny Blue
Subject:             FW: Hurricane Katrina


Extension for FSR's mmk
..-. Original
     .        Message-----
From: Mauk, Rosie [mailto:RMauk@cns.govl
Sent: Sunday, August 28, 2005 8:55 PM
To: Marsha Kelly; Mauk, Rosie
Subject: Re: Hurricane Katrina

Pls use this as confirmation that you have an extension for your FSR until september 30,
2005.


-.---Original Message-----
From: Marsha Kelly <mkelly@ihl.state.ms.us>
To: Mauk, Rosie cRMauk@cns.gov>
Sent: Sun Aug 28 21:25:15 2005
Subject: RE: Hurricane Katrina

I think you are working on Sunday like me and we might want to go home soon! Thanks for
the company. By the way, I still need an email extension for our FSR's until September 30
2005. Just need something in writing . . .at your convenience. Hugs, see you in a couple of
weeks.
Thanks for hosting an ED meeting. mmk
-....Original Message-----
From: Mauk, Rosie [mailto:RMauk@cns.govl
Sent: Sunday, August 28, 2005 8:13 PM
To: Marsha Kelly
Subject: Re: Hurricane Katrina

We are thinking of you


....-Original Message-----
From: Marsha Kelly <mkelly@ihl.state.ms.us>
To: Mauk, Rosie <RMauk@cns.gov>
Sent: Sun Aug 28 21:05:14 2005
Subject: RE: Hurricane Katrina

Thanks Rosie for this message and support. We will keep in touch. mmk



From: Mauk, Rosie [mailto:RMauk@cns.govl
Sent: Sunday, August 28, 2005 9:51 AM
To: owatkins@crt.state.la.us; Marsha Kelly; thasdorff@governor.state.al.us;
wendy@volunteerflorida.org
Cc: Molineaux, Cee Cee; Enciso, Charles; Seale, Elizabeth D .
Subject: Hurricane Katrina



Orlando, Marsha, Terri and Wendy,
Just checking in with each of you to see if you are all okay and if we can do anything for
you? Let us know. We hope you are all safe.




Rosie K. Mauk

Director of ArneriCorps

Phone:    (202) 606-6926

FAX :      (202) 606-3476

"Your World. Your Chance to Make It Better."

Learn how.

Visit    <http://www.arnericorps.org>www.arnericorps.org or call 1 - 8 0 0 - 9 4 2 - 2 6 7 7 .

www.nationalservice.org
                                    3.P??6"hAL&
                                    COMMUNITY
                                    SERVICE-



To:           Gerald Walpin, Impeftor General

From:         Margaret Rosenbe                                ement

Cc:           Jerry Bridges, Chief Financial Officer
              Kristin McSwain, Director of AmeriCorps
              William Anderson, Deputy CFO for Finance
              Andrew Kleine, Deputy CFO for Planning and Program Management
              Sherry Blue, Audit Resolution Coordinator, Office of the CFO

Date:         June 22,2007

Subject:      Response to OIG Draft Audit Report: Agreed-upon Procedures for Corporation
              Grants awarded to the Mississippi Commission for Volunteer Service


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Mississippi Commission for Volunteer Service. The Commission has provided
an extensive response and we are working on resolution with the Commission staff. We are
responding to only one fmding at this time.

As the audit noted, the Commission was late submitting its Financial Status Reports to the
Corporation during 2005. The Commission informed the Corporation of the circumstances for
the late reports at the time and the Corporation provided extensions. While the extensions were
requested after the due dates in some instances, the Corporation was apprised of the
circumstances. The Commission improved its systems and has submitted its reports on time over
the last three reporting cycles.

We will respond to all findings and recommendations in our management decision when the final
audit is issued; we have reviewed the findings in detail; and worked with the Commission to
resolve the audit.




                            1201 New York Avenue, NW *Washington, DC 20525
                                                *
                                 tel: 202-606-5000 www.nationalservice.gov
                                       *
                            Senior Corps AmeriCorps *Learn and Serve America
